                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

11   Case Number: A05010002
                                                                                           11            Page 1 of 1



          NSF OIG received allegations against a subject' alleging intellectual theft and verbatim
          plagiarism. The Subject, a graduate student, had received all his training at a foreign country
          ~ n i v e r s i t The
                            ~ . ~ Subject had returned to that University before the US ~ n i v e r s i t ginitiated its
          inquiry and subsequent investigation. The US University ultimately concluded that the Subject
          committed research misconduct when he published a paper4naming several of his foreign
          country colleagues as co-authors, while failing to name or acknowledge the US laboratory or PI.
          Additionally, the US University concluded that the Subject had posted data in an on-line
          databa~e,~    again crediting his foreign mentor while failing to credit the US laboratory or PI.
          Once informed of the Subject's actions, the foreign mentor had ensured that the paper and data
          were withdrawn. The US University informed the foreign country University which took action
          against the Subject, the Subject's mentor, and an author of the paper containing the plagiarized
          materials.                         r\




          OIG concluded this was an extremely serious case of misconduct because the Subject's research
          misconduct adversely and permanently affected the professional relationships between the US
          and foreign mentor. Further, the data at issue were not published. Several administrative and
          procedural steps taken by the US University complicated the resolution to this case, but
          ultimately resulted in the University refining both its processes and its responsible conduct of
          research training.

          The Deputy Director concurred with OIG's recommendations and made a finding of research
          misconduct and debarred the Subject for 5 years.

          The closeout memorandum, Report of Investigation, and the Deputy Director's letter constitute
          the case closeout.

          This case is closed




           ' Ji-Youne Kim




 NSF OIG Form 2 (1 1/02)
                                       NATIONALSCIENCE FOUNDATION
                                            4201 WILSON BOULEVARD
                                           ARLINGTON, VIRGINIA 22230

                                                 FEB 1 7 2009


    ,.    OFFICE OF THE
         DEPUTY DIRECTOR




     VIA EXPRESS MAIL

1    Mr. Ji-Younn Kim




             Re: Debarment

     Dear Mr. Kim:

     On November 17,2008, the National Science Foundation ('WSF') sent you a Notice of Proposed
     Debarment in which NSF proposed.to debar you fiom directly or indirectly obtaining the benefits
     of Federal grants for a period of five years. The Notice sets forth in detail the circumst&ce~
     giving rise to NSF's decision to propose your debarment. Specifically, NSF indicated in the           '
     Notice that NSF proposed your debarment for committing intellectual theft. As the Notice
     indicates, you entered several gene sequences developed in your University's laboratory into an
     on-line database, omitting any reference to your advisor, and crediting an individual who had not         ,


     participated in sequencing the genes. The proposed debarment also was based on the plagiarism
     in which you engaged when you published a paper derived fiom your graduate research at.the
                                                                                                                   .   .
     University, and omitted any reference to your co-author and faculty mentor. In that Notice, NSF
     provided you with thirty days to respond to the proposed-debarment.

     Over thirty days have elapsed and NSF has not received a response. Accordingly, you are     ,
                                                                                                     '
     debarred until February 17,2014. Debarment precludes you fiom receiving Federal financial and
     non-financial assistance and benefits under non-procurement Federal programs and activities
     unless an agency head or authorized,designeemakes a determination to grant an exception in
     accordance with 2 CFR Section 180.135. Non-procurement transactions include grants,
     cooperative agreements, scholarships, fellowships, contracts of assistance, lbans, loan guarantees,
     subsidies, insurance, payments for specified use, and donation agreements.
In addition, you are prohibited &om receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the period of this
debannent. 2 CFR Section 180.170. During the debannent period, you may not have supervisory
responsibility, primary management, substantive control over, or critical influence on, a grant,
contract, or cooperative agreement with any agency of the Executive Branch of the Federal '
Government.

If you have any questions regarding the foregoing, please contact           Assistant General
Counsel, National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
Room 1265, Arlington, Virginia, 22230.



                                                   Sincerely,



                                                   Cora Marrett
                                                   Acting Deputy Director
        National Science Foundation
        Office of Inspector General




                         Confidential
                     lnvestigation Keport
                   Case Number A05010002




I   This Confidential Investigation Report is the property of the NSF OIG and may be disclosed outside
       NSF only by OIG under the Freedom of Information and Privacy AN, 5 U.S.C $$552,552a                   1
                                                                                     NSF OIG Form ZZb (1 1/06)
The Office of Inspector General (OIG) concludes that the Subject committed verbatim
plagiarism when he published a paper derived from his graduate research in an on-line journal
and omitted any reference or acknowledgement to his co-author and faculty mentor. The article
identified six authors, none of whom had participated in gathering the data described and
contained within the paper. Further, the Subject committed intellectual theft when he entered
several gene sequences developed in his US Mentor's laboratory into an on-line database, again
omitting any reference to his US Mentor, and again giving credit to an individual who had not
participated in sequencing the genes. OIG recommends that NSF take the following actions to
protect the Federal interest and reinforce research integrity within the research community:

                 Make a finding of research misconduct against the Subject;                       . .
                 Send the Subject a letter of reprimand, and
                 Debar the Subject for a period of 5 years.

                                               BACKGROUND

The Subject entered the doctoral program at the US institution3 in September 2000. In 1999,
prior coming to the US, the Subject completed a Master's of Science degree in his home country
(HC) institution4 in the laboratory of his HC en tor.' While in the US, the Subject collected
sufficient data and, with the assistance of his US ent tor,^ drafted three r n a n u ~ c r i ~ tThe
                                                                                                s . ~ text
of one of these manuscripts (the US Manuscript) is the basis for this report.

Abruptly, in October 2003, the Subject departed from his US Institution to return to his HC and
the laboratory of his HC en tor.^ The US Mentor immediately sent the Subject an e-mail stating
that he expected to publish the papers with the Subject as the first author.'' Unbeknowst to his
US Mentor, the Subject returned to HC Institution and laboratory where he had obtained his
Master's degree. In his HC Mentor's laboratory, the Subject was allowed to select from a list of
over 7000 registered sequences and putative clones those on which he wanted to work. He

                        ''
selected from that list two clones that were identical to those on which he had worked in the US
Mentor's laboratory.




 Dr.
 Dr.




10
   and the US Mentor.
                                         -
 The attachments to this investigation report are only a portion of the voluminous materials related to this case. All
 are available for review in the Office of Inspector General.

                              , See Tab 1.

                       ,Professor, School of Life Sciences and Biotechnology, HC Institution. Also see Tab 2.
                                Center                                and Department of Horticulture, US Institution.

                                                                                                        The Subject

   Tab 3, page 1. According to the Subject, he had a difficult time in his US Mentor's laboratory and eventually
   decided his only recourse was to leave.
   Tab 3, page 1.
1I
   Tab 4, page 4,9; Tab 5, page 5; Tab 6, page 2.

                                                  Page 1
                                   \
After a short period of time, he provided his HC Mentor with a draft of a paper describing work
that he ostensibly conducted in the HC laboratory after his return from the US. This draft paper
was edited by both his HC Mentor and several.other individuals and then submitted to the on-line
journal in February 2004 and published in July 2004.12The data discussed in the published paper
were accessioned by the Subject into an on-line databank in October 2003 in the name of the HC
Mentor.13

In July 2004, shortly after the paper's on-line publication, the US Mentor discovered it,14 and
requested information from the HC Mentor. The HC Mentor, who was in England on travel,
informed the US Mentor that he was withdrawing the paper15 and would be discussing the
situation with the Subject on his return. In a series of &ail exchanges with the publisher, both
the US Mentor and the HC Mentor requested that the paper be removed from the website and the
journal complied.16 Shortly thereafter, the HC Mentor ensured that the Subject had removed the
data from the on-line databank.17 One day after the HC Mentor's return to his laboratory, the US
Mentor received an apology from the subject with an offer to restart his research work.''

In January 2005, the US Institution's Research Integrity Officer ( ~ 1 0 )informed
                                                                           '~      OIG of the
status of the US Institution's efforts and sought advice. The RIO provided OIG a copy of the US
manuscript, purportedly written by the US Mentor and Subject, and the published paper.20
Through a series of e-mail and letter exchanges with the US Institution, OIG learned that the US
Mentor alleged that the Subject had returned to his HC with research materials and copies of the ,
three manuscripts, including the US manuscript. The Subject returned the research materials to
the US In~titution.~'

OIG compared the US manuscript to the published paper and concluded that they were virtually
identfcal. The only differences appear to be the name assigned to the sequence under study, the
methods description (which were absent entirely from the US manuscript), and the
acknowledgements. All of the data included in the paper are identical to those in the US




l3  Tab 9. The Subject submitted three sequences on the same day in the HC Mentor's name. Two (                     and
                    were related to the published paper.
l 4 A member of his laboratory, Dr.                   discovered the publication and alerted the US Mentor. (See Tab 10,
    page 2).
" ~ a bl1,page l.Tab6,page2.




                     -
l6 Tab 12, pages 2,3.
17
    Tabs 9 and 13, page 7. The HC Mentor claims to have independently obtained and submitted the full sequence for
    these two clones (Tab 4, page 4). Tab 49, page 8.
I S Tab 13, page 2. Over the next 4 months, (3 August 2004 through 2 November 2004) the Subject appealed to his
    US Mentor for help and described his desire to publish his results seven different times. On 18 and 19 August
    the Subject sent the same message from two different e-mail accounts attaching drafts of the three manuscripts.
     --- 13.
    Tah  - - naees
          7
                       3- 1 1.
             r - 0 - - - - -.
l9 Dr. ,
--
LO
                               Vice Provost for Research,
    Tabs 7 and 8 respectively.
    The research materials include: a data base consisted of 289 genetic sequences from                            (either
    produced at the US Institution or extracted from the public database by BLAST searches (Tab 14, page 12) that
    were selected for                         proteins and were in various stages of analysis, 25 photos and 34 X-ray
    films. (Tab 15, page 2) Note: The Subject claimed that he "identified and sequenced 289 putative clones." Tab
    16, page 2-3.

                                                    Page 2
manuscript.22The US Institution initiated an inquiry into the matter while OIG gathered
sufficient information to understand the scope of the allegations and then, consistent with OIG
practices and NSF regulation, referred the research misconduct inquiry to the US Institution.

In February 2005, the US Institution informed the Subject and the HC Mentor that it had formed
a research misconduct Inquiry Committee (the US Inquiry ~ o m m i t t e e ) .In
                                                                              ~ ~response, it
received a letter from each of the seven authors of the paper. 24 It interviewed the Subject by
telephone.25 In both his letter and during the interview, the Subject admitted that he took the
data and published the paper without the HC authors knowing he had deceived them about the
source of the data and manuscript.26 Each of the co-authors stated similar facts.

In its March 2005 report, the US Inquiry Committee stated:

        The evidence indicates that [the Subject] misrepresented where this work
        was done; thus we tentatively conclude that [the HC Mentor] was not aware
        of this situation nor were other members of [the HC Mentor's] laboritory.
        However, it is also a clear expectation of any senior Prjncipal Investigator
        that he or she maintains full knowledge of what research projects the PI'S
        students are working on, what the progress is, and when the work is ready to
        publish. The responsibility of the [HC Mentor] in this regard can not be
        understated. It is his job to know the details and his job to uphold the ethical
        standards of his own laboratory. Further, the apparent timing of the
        submission of the manuscript so soon after [the Subject's] arrival in [the HC
                                                                            J
        Mentor's] laboratory should have warned [the HC Mentor that the data ,
        reported originated some place other than his lab~ratory.~

The US Inquiry Committee "conclude[d] that research misconduct may have occurred and that
sufficient cause exist[ed] to warrant a full i n ~ e s t i ~ a t i o nThe
                                                                      ."~~ accepted the
committee's recommendation. The report was forwarded to the Subject who responded by
describing his work in the US Mentor's laboratory and why he had left that laboratory. He
expressed his concern that the HC Mentor could suffer negative repercussions from the Subject's
actions.30

In February 2005, the HC Mentor alerted his School at the HC Institution of the matter.31The
School formed an internal committee to examine the matter and in June 2005 it notified OIG of
its May 2005 report which:



22 Compare Tab 7 and 8. Identical text is highlighted in yellow and common data are enclosed in red boxes.
23 Tab 17.
24 Tab 4.
25 Tab 18.
26 ~ a 4,b page 1-2, Tab 15, Tab 18.
27
   Tab 19, page 2.
28 Zbid.
"                          , and Executive Vice President
30 Tab 5, page 4.
3' School of Life Sciences and Biotechnology, see also Tab 4, page 4. ,


                                                 Page 3
                 required the Subject to leave his HC Mentor's laboratory and suspended his
                 doctoral research for one year, and
                 severely warned the HC Mentor about his responsibilities and told him not to
                 conduct research that overlapped with that of the US Institution laboratory.32

The Dean of the             informed the US Institution of its decisions and the US Institution '
expressed its appreciation that the HC Institution would "ensure that research at [the HC
Institution] will not overlap with the work being conducted at the US ~nstitution."~~

Consistent with OIG practice and NSF policy, OIG referred the subsequent investigation to the
US ~nstitution.~~The US Investigation Committee's draft report was provided to the Subject,
who shared it with the HC Mentor. The HC Mentor provided some explanations and appealed ,
for lenient reco~nrnendations.~~
                               Based on the US Investigation Committee's report, in October
2005 the Provost concluded that the Subject had committed misconduct. He barred him from
studying or being employed by the US Institution for a period of 5 years.37

In November 2005; the US Institution provided the HC Institution with a copy of its final
decision and investigation report. In the transmittal letter the HC Institution president,38the RIO
said, "I do call your attention to the actions taken by your faculty and students and request that
you review the Investigation Report and the action of [the Subject] and his co-authors in regard
to the article in [the journal] . . . . I would further ask that you take appropriate actions if any
author or authors are found to have committed scientific or research misconduct under the
policies of the [HC In~titution.]"~~     The HC Institution then convened its Investigation Committee
that provided a new investigation report and actions in March 2006.~' It took the following
actions:

                 The Subject would not be admitted to study and not be employed for research or
                 otherwise participate in any activity at the HC for 5 years,
                 The HC Mentor was prohibited from receiving research grants from the HC
                 Institution for 3 years,41
                 The HC Mentor received a written warning from the HC Institution President, and
                 The Other Author of the paper received a written warning from the HC Institution
                 President.

Following the receipt of the US Institution's investigation report, OIG requested information
from the ~ubject,~'the HC ent tor,^^ as well as the Senior Author on the paper.44 Our letters

32 Tabs 20, and 2 1 (pages 3 and 6).
33   ,                Professor and Dean, School of Life Sciences and Biotechnology.
34 Tab 20, page 4.
35 Tab 22.
36 Tab 6.
37 Tab 23, page 2. OIG communicated with the HC Institution expressing its concern over the content, analysis and
   organization of the report.
38 Dr..-
39 Tab 24.
40 Tab 25.
41
   Tab 60. The HC Mentor explained that the HC Institution's action meant that he would not receive "a small
   internal grant (around USD 11,000)." He was still able to apply for government grants.

                                                Page 4
contained highlighted copies of the US manuscript and the published paper. The HC Mentor and
Senior Author provided OIG with additional i n f ~ r m a t i o nthat
                                                                 ~ ~ called the accuracy of the US
Institution Investigation Report into question.
                                                                                            I


The Senior Author expressed surprise that the US manuscript contained text that he had written.
He noted that this could only happen if the US manuscript "was written after our [published
paper]. In conclusion, as far as               is concerned, the allegation is wrong and false.
Now I am very curious to know how these two manuscripts are exactly same, despite the fact
that [the Subject's] original draft is significantly different from our final revised [published
paper]."46 Shortly thereafter, the HC Mentor informed the US Institution of this same
infomiation. He explained that the US manuscript, which the US Institution relied on in its
investigation, could not possibly have been written before the published paper because the US.
manuscript contained text that had been inserted by the HC Mentor and Senior Author during
editing and in response to the journal editor's comments. He provided copies of iterative
manuscripts to showing successive changes made to the original draft provided by the Subject to
the HC en tor.^^

OIG contacted the US Institution with its concerns. OIG noted that the US Institution's inquiry
report stated that "by several independent determinations the following is clear: the research
described in that manuscript, the data and the writing (without substantive differencefrom the
published version) were all done while [the Subject] was a student at [the US institution^."^^
Further the US Institution's investigation report stated the following as the second principle
allegation: "It is further alleged that the research described in that manuscript, the data, and the
writing (without substantive diflerencefrom thepublished.version) were all done while [the
Subject] was a student at [the US institution^.^^ Finally, the US Institution's investigation report
concluded that the Subject was guilty of plagiarism and that he "published a paper in [the
journal] along with several other authors from [the HC Institution] that was originally written
while at [the US ~nstitution]

OIG could not reconcile the findings of the US Institution with the facts as had been presented. .
It appeared that the only direct evidence underlying the US Institution Investigation Committee's
conclusion was the US manuscript. That manuscript, provided to the US Institution by the US
Mentor, contained the edits of the HC Mentor and Senior Author h d could not possibly be the
draft taken by the Subject from the US laboratory on his return to his HC. The confused
organization of the US Institution investigation report and appendices made it impossible to
determine with certainly which manuscript the US committees had relied on. Therefore, OIG


42 Tab 26, the Subject has never responded to requests for information since the initial misconduct finding by the US
   Institution.
43 Tab 27
   Tab 28. The Senior Author, Department of Molecular Biology,            University, Tab 27. The Senior Author
   stated he had "corrected grammatical errors, rewrote awkward sentences, and provided useful comments on the
   data interpretation and discussion." See Tab 4, page 7.
45 Tabs 27 and 28.                     )



46 Tab 28, page 5. Emphasis in original.
47 Tab 29.    .
48 Tab 19, page 1. Emphasis added.
49 Tab 23, page 5. Emphasis added.
   Tab 23, page 8.

                                                 "Page 5
requested that the US Institution definitively identify, and provide OIG with a copy of, the
manuscript,that formed the basis for its committees' conclusions and the US Institution findings.
The US Institution searched its records and was eventually able to locate a manuscript on which
both the Subject and US Mentor had worked. It had been "marked up" by the Subject while
working at the US Institution.'!

This manuscript (US marked-up manuscript) was not relied on by the US committees in coming
to their conclusions. Nor was it the basis for the conclusions of the US Institution and those o f .
the HC Institution. In response to OIG's inquiries, the US Institution explained it had requested
that the US Mentor provide materials related to the allegation. He provided the Subject's
notebook. Upon further prompting by the US Institution, he then provided a box of materials.
The materials in that box relevant to the allegation, which included the US marked-up
manuscript, were then provided to the US Inquiry Committee to review. However, the
Investigation Committee and the Inquiry Committee apparently formed their conclusions by
comparing the US manuscript52to the published paper rather than the US marked-up manuscript.
The US official overseeing the US investigation informed the HC Mentor and OIG that he was
"deterrnin[ing] how to proceed with this matter" and that the HC Mentor "raised some questions
in [his] mind, which [he was] in the process of perusing."53

OIG came to two conclusions. First, the US mark-up manuscript is significantly different fiom
the US manuscript. The US marked-up.manuscript has a cover page with the US Mentor's name,
address, acknowledgements to US funding entities, and the name of the gene sequence reverted
fiom the HC designation to the US designation. It also contains text inserted by the Subject's
HC colleagues and recommended by the journal editors. The US manuscript could only have
been generated after the published paper appeared. It appeared that the US Mentor had altered
the published paper for the purposes of convincing the US Institution that the Subject had stolen
his materials and that the US Mentor had provided false information to the US Institution.

Second, OIG concluded that the US Inquiry and Investigation Committees had relied on the
wrong manuscript when arriving at their conclusions. Therefore the appropriateness of the US
Institution's decisions was in question. OIG concluded it could not rely on the US Institution .
Investigation Report and informed the US Institution. The US Institution committed to OIG to
reopening its investigation into the allegations against the subject and said that it would begin an
inquiry into the matters related to the US Mentor. It notified the US Mentor, the Subject, and the
HC Mentor. It formed two separate committees: one to re-investigate the allegations against the




   Subject and others. (see Tab 3 1 for handwriting analysis commissioned by the US Institution); Tab 32 contains a
   copy of the published paper. The common text in the published paper and US marked-up manuscript is
   highlighted and the common data enclosed in boxes.
52 The US Mentor initially provided the US manuscript as the source document to the US Institution when he had
   alerted the US Institution to the allegation. He failed to clarify that 1) the US marked up manuscript was the last
   version of the manuscript he had worked on with the Subject and 2) he had received the US manuscript from the
   Subject from his HC, via e-mail, after he had discovered and taken action regarding the published paper and the
   Subject had requested several times to be able to return to the US Institution and publish the manuscripts.
53 Tab 33, pages 2-3.



                                                  Page 6
Subject (the second US Investigation Committee) and another, an inquiry, to review the
allegation against the US ent tor.'^

Following consultation with this office, the US Institution vacated the results of its first
                                             'P
investigation of the ~ubject." It also a pointed another US Institution officials6in lieu of its
RIO to oversee the new investigation. . It informed the HC Institution President and the HC
Mentor of its actions. It requested that the HC Mentor inform the Subject (who had not
responded to any requests from the US Institution since the findin of research misconduct and
his expulsion from the HC In~titution).'~The HC Mentor did so.5 F

                       THE US INSTITUTION SECOND INVESTIGATION .

In January 2007, the US Institution completed its second investigation into the allegations
against the Subject. The report6' presented the committee's extensive review of the materials
previously gathered in the case, e-mails exchanged between the Subject and US Mentor, as well
as draft manuscripts generated and edited by the Subject and US Mentor. It received additional
input from both the HC and US ent tors.^'

The committee concluded that in the approximate 3 iears the Subject worked in the US Mentor's
laboratory he generated data and drafted, with the US Mentor, three manuscripts. He abruptly
departed from the US Mentor's laboratory to enter a Ph.D. program in his HC Mentor's
laboratory. 62 In the HC laboratory, and operating in a relatively independent fashion, he
appeared to be generating data and writing a manuscript. In the HC Mentor's laboratory, he
participated in biweekly meetings, presenting data enerated in the US laboratory as data
generated recently in the HC Mentor's laboratory.6y He worked with at least the HC Mentor and
the Senior Author to edit and refine the manuscript.. Once the US Mentor alerted the HC Mentor
to the origins of the on-line publication and the data, the HC Mentor moved swiftly to retract the
publication64and ensure the data were rem~ved.~'



54 Tab 34 (letter to HC Mentor related to US Institution inquiry); Tab 35, (cover letter to US Mentor informing him
   of an allegation of research misconduct against him). OIG had noted to the US Institution that, under the Federal
    definition, altering evidence would not be considered research misconduct; Tab 36 (charge to US Institution
    committee conducting inquiry into US Mentor's actions); Tab 37 (cover letter to Subject informing him of      ,
   reopened investigation); Tab 38 (charge to US Institution committee investigating reopened cases regarding the
    Subiect).
''
                                                   I

    ~ a 39.b
56 ,                        Vice Provost for Faculty Affairs.
" Tab 4 1
   Tab 4 1.
59 ~ a 41,b page 3.
60 Tab 42.
61 Tab 43 and 44.
   It is clear fiom the e-mails exchanged by the Subject and US Mentor (Tab 45), the comments of the HC Mentor
    (Tab 4, page 3; Tab 6, page 2) and the US Mentor (Tab 44) that there were differing views on the Subject's
    experience in the US Mentor's laboratory and his independent efforts to develop the data and write the
   manuscripts. See also Tab 16, page 2; Tab 42, page 13; Tab 46, pages 10, 14, and 16.
63 Tab 43, page 4.
61 Tab 42, page 12, 15,30
65 Tab 6, page 4.
                                              I   -.

                                                       The Acts

Although the content of the source document changed when the US Institution realized that it
had relied on the wrong manuscript in making its initial conclusions, the salient facts related to
the Subject's actions, such as the removal of the data, the submission and publication of the      ,

paper and gene sequences, and the Subject's confessions did not. The US Second Investigation
Committee concluded that a preponderance of the evidence supported the conclusion that the
Subject "removed [the US Mentor's] name from a [marked-up manuscript] to which [the US
Mentor] had contributed ideas, processes, and words. Even accepting that [the Subject] also
contributed ideas and words to this manuscript, we find that this removal of [the US Mentor's]
name was more than an authorship dispute." In addition, it concluded that the Subject "alter[ed]
the acknowledgement section to eliminate reference to either the federal grants or those who had
assisted [the US Mentor] in the r e ~ e a r c h . " ~ ~

The Committee further concluded that a preponderance of the evidence supported its conclusion
that the Subject submitted "two gene sequences identified at [the US Institution] under another
researcher's name."67 We considered these conclusions to support the overall finding that the
Subject committed both verbatim plagiarism and intellectual theft.
                                            1 ,                                                        I
                                                       The Intent

The US Institution Second Investigation Committee concluded that the Subject's actions with
regard to the marked-up manuscript and the gene sequences were "intentional and knowing."68
It concluded that the Subject's action to change the name of the gene was "strong evidence of an
effort to conceal the fact that the data and the . . 2 manuscript had been developed elsewhere.
This attempt to conceal demonstrates not only that the [Subject] acted knowing and intentionally,
but that he understood what he was doing to be wrong. . . . [The HC Mentor told the Committee
that the Subject] offered [the data] up during weekly lab meetings as having been created at [the
HC Institution], further demonstrat[ing the Subject's] attempt to conceal the fact that his data
was [sic] created elsewhere. Again, this attempt to conceal demonstrates that [the Subject]
understood what he was doing was wrong, and that he acted knowingly and intentionally. . . .
[The HC Mentor's testimony that the Subject] held his initial draft manuscript out as having been
written at [the HC Institution] . . . further demonstrates [the Subject's] intent to conceal the fact
that the manuscript was first written at [the US Institution] . . . Again this attempt to conceal
demonstrates that [the Subject] understood what he was doing was wrong, and that he acted
knowingly and intentionally." 69




66 Tab 42, page 34. OIG notes the Subject also deleted references in the Bibliography to his US Mentor's research
   and renamed the gene sequence.
67 Tab 42, page 34.
   Zbid.
69 Tab 42, page 3 1.


                                                  Page 8
                                            Research Misconduct

With regard to the text and gene sequences, the US Institution Second Investigation Committee
concluded "based on a preponderance of evidence, that the [Subject] knowingly and intentionally
committed scientific misconduct." It characterized the Subject's actions regarding the data as "a             '


serious deviation from accepted practices regarding the reporting and accrediting of data" 70 and
with regard to the manuscript as "plagiarism."71

                                                  Seriousness

The US Institution Second Investigation Committee report states:

         We further find the misconduct egregious. This is not a case of a graduate
         student who uses data acquired at one institution to write a manuscript at
         another, or even a case of a student who takes a very early draft of a
         manuscript to another institution before it has been reviewed by the PI.
         Instead, this case involves a deliberate effort to deceive and conceal. [The
         Subject] did not simply take a rough draft of a manuscript and add
         acknowledgements and authors. He deleted any reference [to the US
         Institution, US Mentor] or his lab. He deleted and replaced the
         acknowledgements. He altered the name of the gene. This demonstrates a            ,


         deliberate effort to conceal the source of his work from [US Institution]
        .personnel. These intentional acts are so outrageous, we find that even a
         graduate science student with less seniority than the [Subject] would have
         recognized the conduct as scientific m i s c ~ n d u c t . ~ ~

The Committee report noted that the Subject had worked in the US Mentor's laboratory for 3
years; had previously earned a Master's degree in his HC; and "as such he had substantial
instruction concerning, experience in, and exposure to accepted practices concerning the
ownership and appropriate crediting of scientific data."73 It noted the HC Mentor's statement
that he had advised the Subject, while a Master's candidate, about research misconduct and had
instructed the Subject to leave all US Institution data at that i n ~ t i t u t i o n .It~noted
                                                                                          ~     that the US
Mentor had advised the Subject by e-mail, within 3 days after the Subject's, departure, that the
US Mentor would be working on the manuscripts and that the US Federal agencies supporting
the research would need to be acknowledged. The US Mentor told the Subject he needed to hear
from him by a specific date regarding the journals to which the manuscripts should be
~ u b m i t t e d .All
                   ~ ~ of these events contributed to the Committee's conclusion that it believed the
Subject was aware of the seriousness of his misconduct and that it constituted research
misc~nduct.~~


70 Tab 42, page 34.                            I

7' Tab 42, page 3j.
72 Tab 42, page 34, emphasis in original.
73
   Tab 42, page 30.
74
   Tab 42, page 3 1; Tab 43, page 7; Tab 4, page 3.
75 Tab 42, page 30. Also see Tab 3.
76 Tab 42, page 30.


                                                 Page 9
                        Committee Recommendation and Action by US Institution

The Committee recommended that the Subject "be denied further emploment at [the US
Institution] or readmission as a graduate student."77The Provost reviewed the report and agreed
that a preponderance of the evidence supported the conclusion that the Subject had "knowingly
and intentionally committed scientific misc~nduct."~~     He revised the Committee's
recommendation of a permanent bar on the Subject's employment at the US Institution to 5 years,
consistent with the action he took after the earlier, rescinded, investigation. The report and
conclusion were transmitted to the             He has not responded.

The HC Institution took three actions against the Subject. In June 2005 after it was alerted to the
matter by the HC Mentor, the HC Institution's School at which the Subject was enrolled
suspended the Subject for 1 year and removed him from the HC Mentor's l a b ~ r a t o r y .In~ ~
August 2005, that School removed him from the school register and barred him ever returning to
the ~ c h o o l . ~In' March 2006, after it received the US Institution's first investigation report the
HC Institution barred the Subject from employment or any other activity at the HC Institution for
5 years.82

                                        OIG's ASSESSMENT

OIG concluded that the US Institution's first investigation report was inaccurate and incomplete.
OIG found that the Committee had relied on the wrong manuscript as the source document. The
US Institution conveyed the inaccurate report to the HC Institution which, in relying upon it,
barred the Subject from enrollment; barred the HC Mentor from receiving research funding from
it for 3 years and issued written warnings from the HC Institution's President to the HC Mentor
and another author. After discovering that it had relied on the incorrect document, the US
Institution rescinded its first investigation. It formed a second Investigation Committee, with
new membership, and recused the US official that oversaw the first investigation from the       .
second.

OIG reviewed the US Institution's second Investigation Report and determined that it was
accurate and complete.' OIG further determined that, given the circumstances, the second
Investigation Committee followed reasonable procedures. OIG concluded that the second report,
when combined with the evidence and conclusions in the inquiry report regarding the allegation
against the US Mentor, created a sufficient body of investigative information such that OIG did
not need to conduct further investigation.

NSF's research misconduct regulation states that for NSF to make a finding of misconduct, the
act must be a significant departure from the accepted practices of the relevant community, that



77 Tab 42, page   35.
78 Tab 47.                                          \

79 Tab 48,page 3.
 Tab 2 1, page 3.
"Tab 2 1, page 4.
 Tab 25, page 1.

                                           Page 10
the misconduct be committed with at least reckless intent, and that the allegation be supported by
a preponderance of the evidence.83

OIG concurs with the US Institution Second Investigation Committee's conclusions that the
Subject's actions with regard to the manuscript and the data were significant departures from the
accepted practices of his community. The Subject's actions with regard to both were intentional
and knowing. A preponderance of the evidence supports the Committee's conclusions about the
Subject's actions and his intent. OIG therefore concurs with the US Institution that the Subject's
actions with regard to the US marked-up manuscript were plagiarism and the Subject's actions
with regard to the data were research misconduct.

The Subject's misappropriation of data bears some additional discussion. As part of his graduate
research, and over a 3-year period, the Subject claims to have gathered data to create the
database of 289 sequences and analyze selected sequences therefrom. In the process of
analyzing these sequences, studying two in particular, he amassed research notes and minimally
25 photographs and 34 X-ray films. The Subject and the US Mentor actively discussed the
direction of the Subject's projects in order to gather sufficient data for at least 3 journal
publications. They developed drafts of these publications. The data (as well as the analysis in
the manuscripts) contain the intellectual efforts of both the Subject and the US Mentor. The US
marked-up draft manuscript identified both the US Mentor and Subject as authors.

The US Institution asserts correctly that the materials generated under a Federal grant are the
Institution's property and responsibility. It is clear that, at the time these allegations arose, the
US Institution did not provide training to its research personnel with regard to institutional and
individual research management r e ~ ~ o n s i b i l i t i eNevertheless,
                                                            s.~~          the Subject's theft of these
materials represents theft of the physical materials that belonged to the US Institution as well as
the intellectual property associated with those materials that correctly should have been shared
with the US Mentor. When confronted, the Subject immediately returned the physical materials
he took from the l a b o r a t ~ r y .The
                                      ~ ~ removal of both the paper and gene sequences from public
access does not, however, address the intellectual theft. Almost 4 years later, the data and ideas
expressed in these manuscripts remain unpublished because of the Subject's actions. The Subject
intentionally took the physical materials and published their intellectual content without crediting
his US Mentor in an attempt to secure his standing in the HC Mentor's laboratory and advance
his progress toward a doctorate degree.86He clearly recognized the value of these materials as
articulated in his e-mails to his US Mentor in which he repeatedly requests readmission to his
laboratory and publication of the manuscripts for the purpose of securing his doctorate.87 Thus
                                                                                                       '
OIG concludes that a preponderance of the evidence supports the conclusion that the Subject
committed intellectual theft when he intentionally misAppropriation data.



83 45 C.F.R. Q 689.2(~)(1-3).
84 Tab 14, page 3, 15, 16,23. Prior to this time, it apparently relied on oral tradition and expectation to
   communicate its responsibilities and obligations (Tab 14, page 11). After review, the US Institution was able to
   explain that its record retention policy places the responsibility for retaining records from research grants for 3
   years on the Principal Investigator and Department. It has conveyed that information to its community.
8S Tab 4, pages 1-2.
86 Tab 13, page 2,9; Tab 43, page 4.
87 Tab 13.


                                                  Page 11
The HC Institution's reports do not follow the same criteria for making conclusions about .
research misconduct. It concluded that the Subject "committed scientific misconduct by
plagiarizing the intellectual property and research materials [of the US institution^."^^ Thus, its
conclusions, with regard to the Subject, supports those of the US Institution.

                                               Final Actions

In deciding what final actions to take, NSF officials are to consider how serious the misconduct
was, the degree of intent associated with the Subject's actions, any evidence of a pattern, and the
impact of the Subject's actions on the research record.8g

                            Seriousness and Aggravating Circumstances

OIG concurs with the US Institution Second Investigation committee's assessment of the
seriousness of the Subject's actions. In addition, OIG concludes that there were direct and
adverse effects of the Subject's actions on the collaborative progress of research, the US Mentor,
the HC Mentor, and the Other Author. An in-depth discussion of those affects are found in Tab
61.

It is the case here that there were serious investigative missteps that if avoided, could have
simplified this case. The HC Mentor and those in his laboratory could have done more to ensure
that the data and papers attributed to his laboratory were actually generated by the Subject in his
laboratory. The US Mentor could have done more to ensure that the US Institution committees
identified the correct source document; although, his efforts would not alter any conclusion about
the Subject's research misconduct. Further, the fallout from the Subject's actions and the ensuing
investigations have eliminated the possibility of any future collaborative work, and certainly
have exacerbated the relationships, between the US Mentor's and HC Mentor's laboratoriesg0as
well as those researchers directly or tangentially related to those laboratories. Four years later,
the US Mentor has still not published data developed with Federal funding.

It appears the Subject felt the research environment in the US Mentor's laboratory was not
tolerable and he introduced that, in part, as a rationale for his actions. He may have concluded
that he had no choice but to depart from the US Mentor's laboratory. He may have felt
significant pressure to publish so that he could attain a doctorate degree. Regardless of those
circumstances and despite any proffered rationale, there is no excuse or justification for his
research misconduct. None of events described in this report would have come to pass if the
Subject had acted with integrity. His research misconduct is the impetus for the entire chain of
events and must be considered when evaluating any actions in response.

                                             Degree of Intent

The US Institution Second Investigation Committee concluded that the Subject's actions were
knowing and intentional. We conclude that the degree to which Subject's actions are intentional
is beyond dispute. We have rarely seen a case this serious or one that has caused so much.

" Tab 25, page5.
 45 C.F.R.8 689.3(b)(l-5).
 Tab 6, page 4; Tab 44, page 2 and Tab 59, pages 2-3.

                                              Page 12 '
damage to the careers of researchers, both in the US and the HC. The Subject decided to leave
his US Mentor's laboratory, and surreptitiously took manuscripts, notebooks, and data. He
intentionally selected sequences from the HC Mentor's list that were identical to those he had
worked on in the US. He presented data and text, developed and written in the US Mentor's
laboratory, during laboratory meetings in the HC Mentor's laboratory. During these
presentations, the Subject misled the HC Mentor and others in that lab that such data and text
resulted from work the Subject had completed after his return to the HC Mentor's lab.

Despite having published before, and understanding the value of publications for advancement,
the Subject intentionally did not attribute the work to the US Mentor or others in that laboratory.
He instead attributed it to individuals in the HC Mentor's laboratory he knew had not generated
the data.91 He deleted text from the manuscript which would have alerted his HC colleagues to
the source of the text and data. He submitted sequences to a data bank in his HC Mentor's name,
without his HC Mentor's knowledge, that he knew were from the US laboratory.

The Subject was an experienced scientist. He,was exposed to significant training in the ethics of
research. 92 We find nothing to mitigate his misconduct or alter our conclusion that the Subject's
actions were intentional.
                                                                 I

                                             Pattern of Behavior

The typical pattern observed in a plagiarism case is the serial submission of several proposals
containing plagiarized material. Here the pattern is different, but no less significant. The
Subject knowingly and secretly removed from the US laboratory the raw experimental results, a
database with 289 entries, and manuscripts he needed to ensure his success in the HC laboratory
to which he had previously, unbeknownst to the US Mentor, secured r e a d m i ~ s i o n .Once
                                                                                         ~ ~ there,
he selected to work on two genes that were same as those he had worked on in the US laboratory.
It was then simple for him to use his previously developed reputation in the HC laboratory as ap
industrious worker to believably misrepresent the US-gathered data at weekly meetings as
evidence of progress and to proffer the manuscript as the fruits of his labors. 94

On receipt of the draft manuscript from the Subject, the HC Mentor stated that he recommended
that the Subject gather additional data to develop a submission acceptable to a higher tier journal.
He speculated that the Subject selected the on-line journal, which required no additional data
gathering (data he did not already have) because the Subject needed two articles in international
journals as a prerequisite to receiving his d~ctorate.~'The Subject deceived his HC co-authors


91 Infact, in his letter to the US Institution Inquiry Committee, he stated, "Being unfamiliar with [The US
   Institution] policies regarding publication, I tried to publish one of the manuscripts. Having recognized my
   wrong judgment.[sic] I withdrew the manuscript before publication." (Tab 15, page 1). First, the Subject
   recognized the value and customs associated with authorship within the research community because he needed
   two publications to receive his doctorate and because he provided the entire HC team with authorship. He falsely
   claims he withdrew the manuscript "before" publication.
92 Tab 2. The Subject had received his Master's degree and had published two papers and two abstracts. He had
   another paper in submission prior to his enrollment at the US Institution. See also Tab 42.
93 Tab 13, page 1; Tab 15.
94 Tab 6, page 3; Tab 27, page 4 , 6 ; Tab 43, pages 2-3,4, 5.
95 This prerequisite may in part explain the Subject's repeated requests to the US Mentor to return to the US and to
    publish the three manuscripts. (See Tab 13 and Tab 6, page 3.)
about the origin of the data and text in the manuscript. He continued the deception after the
manuscript was submitted, allowing them to edit the manuscript and insert journal editor
comments in order to ensure its publication.96 Finally, once exposed, the Subject admitted his
actions and pled for understanding from both the US and HC ent tors.^^ At the same time, the
Subject was editing the published paper to remove the names of the HC authors, reverse the
name of the gene, and resubmitting it to the US en tor.^^ He did not tell the US Mentor the
drafts he received contained text created by others. The Subject effectively repeated his
misconduct again by failing to acknowledge the contributions of his HC colleagues and implying
all of the text was created by his editing on the manuscript.

                                      Impact on the Research Record
                                  '




Here, there are two separate effects on the research record, first on the retraction of information
made briefly available to the greater research community and second on the inability of the HC
and US Mentor to publish information that could have accelerated understanding and research
avenues. The Subject caused three gene sequences to be submitted to a public databank and
falsely claimed that his HC Mentor was the "author" of those sequences,99sequences that had to
retracted by the HC Mentor. The Subject also caused to be submitted and published a paper that
failed to acknowledge the US Mentor, and claimed work by the US Mentor as his own. The HC
Mentor and the US Mentor caused the paper to be withdrawn."'         Finally, both the HC Mentor's
and US Mentor's research programs have been adversely affected because they have been unable
to pursue lines of research or publish work, they otherwise might have done.'''

                     The Subject's Response to the Draft Investigation Report

The subject was provided a copy of the draft investigation report, and chose not to respond.lo2




" Tabs 4,6,27,28,29,43.
97 Tabs 6, page 3 and 13; Tab 13.
98 Tab 13, page 4-6.
99 Tab 9.
loo Tab 12.
lo' Tab 6; Tab 27, page 9, Tab 56, page 13.
'02 The subject's current address is:



                                              Page 14
                                          OIG's Recommended Actions

OIG recommends that NSF take significant action to protect the Federal interest and to uphold
the concepts of research integrity. The Subject may never again conduct research, or have the
opportunity to enjoy the benefits of US funding. He may choose not to respond to this report or
to NSF's findings. His actions, however, were egregious and had significant, long term'and
adverse effects on research. Such egregious behavior, particularly when known within the
affected research community, cannot go unaddressed. OIG recommends that NSF reaffirm its
firm, long-held position that researchers must act with integrity and that it will take action to
protect the Federal interest and reinforce research integrity within the community. OIG
recommends that NSF take the following actions:

                    Make a finding of research misconduct against the Subject, lo3
                                                              '"
                    Send the Subject a letter of reprimand, and
                    Debar the Subject for 5 years.105




'03   A Group I action (45 C.F.R. 689.3(a)(l)).
'ol A   Group I action (45 C.F.R. 689.3(a)(l)).
  105
      A Group I11 action (45 C.F.R. 689.3(a)(3)).


                                                    Page 15
